Office of the Hunterdon County Prosecutor

FRANK R. CRISOLOGO

RENEE M. ROBESON ACTING CHIEF OF DETECTIVES

ACTING PROSECUTOR
PAUL T. APPROVATO.

ACTING DEPUTY CHIEF OF DETECTIVES

 

Justice Center, 2” Floor
65 Park Avenue
PO Box 756
Flemington, NJ 08822-0756

Telephone 908-788-1129
Fax 908-806-4618
ywww.co hunterdon.nj.us/prosecutor.htm

June 9, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543-0001
Via e-mail to: Danny Bickell, Deputy Clerk: dbickell@supremecourt.gov

Re: Reb Russell, II v. State of New Jersey, No. 20-1419
Request for extension of time

Dear Mr. Harris,

I represent respondents, the State of New Jersey, I request an extension of time to oppose the
petition for a writ of certiorari in this matter. The current deadline is June 16, 2021 and
respondents respectfully seek an extension of thirty days. The reason for this request allow time
to process my application for admission(submitted today by overnight carrier), inasmuch as no
other attorneys in my office are admitted. A thirty day extension results in a deadline of July 16,
2021 to file an opposition.

Thank you for your consideration.
Respectfully submitted,

Renée M. Robeson
Acting Hunterdon County Prosecutor

 
 

By:

 

efffey L. Weinstein
Acting Assistant Prosecutor/SDAG

c: Louis P. Nappen, Esq.
